LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 9, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-169:

JANE DOE V. IOWA

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Collateral
Consequences Resource Center and Institute for Justice as Amici Curiae in Support
of Petitioner referenced above contains 3,679 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).
As a member of the Supreme Court Bar, I declare under penalty of perjury that
the foregoing is true and correct.
Sincerely,

Arthur D. Chotin, Esq.
Principal

